U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Miladis Salgado v. United States of America,
S.Ct. No. 19-659

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on November 19, 2019.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government's response is now due on January 21, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 20, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0659
SALGADO, MILADIS
USA

DAN ALBAN
INSTITUTE FOR JUSTICE
901 N. GLEBE ROAD
SUITE 900
ARLINGTON, VA 22203
703-682-9320
DALBAN@IJ.ORG
JOSHUA S. LIP SHIJTZ
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, N.W.
WASHINGTON, DC 20036
202-955-8500
JLIPSHUTZ@GIBSONDUNN.COM
SAMUEL G. MACROBERTS
KANSAS JUSTICE INSTITUTE
12980 METCALF AVENUE
SUITE 130
OVERLAND PARK, KS 66213
913-213-5018
SAM.MACROBERTS@KANSASJUSTICEINSTIT
UTE.ORG
JUSTIN MARC PEARSON
INSTITUTE FOR JUSTICE
2S. BISCAYNE BOULEVARD
SUITE 3180
MIAMI, FL 33131
305-721-1600
JPEARSON@IJ.ORG

